                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 13-00696-254


                Healthcare Inspection


      Follow-Up Assessment of

          Radiation Therapy

  VA Long Beach Healthcare System

       Long Beach, California





July 31, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA



                                 Executive Summary

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted a
review in follow up of its March 2011 report on radiation therapy (RT) at the VA Long
Beach Healthcare System (facility) in Long Beach, CA. OIG also assessed the validity
of new allegations related to the quality of radiation treatments.

We conducted an unannounced inspection in December 2012 and an announced
inspection in February 2013, observed the practices of radiation therapists, and
examined departmental electronic and paper records that are accessible only onsite.

We found that prior to March 2011 the facility had no written policy for procedures to be
followed when shifts in the field of delivered RT occurred. For three prostate cancer
patients treated in 2009 and 2010, therapists did not obtain images following shift
corrections. However, we were able to determine that appropriate corrections occurred
and that, despite shifts, all patients received full treatment to tumor containing tissue.
Additionally, there was no evidence of complications attributable to errors in delivery of
radiation therapy.

We also found that a patient treated in 2010 for vocal cord cancer had transient skin
abnormalities resulting from misdirection of the radiation beam. This problem was
identified and corrected after 10 treatments, no long-term adverse consequences
resulted from the initial misdirection of the radiation beam, and radiation was
consistently delivered to the target lesion. For an additional 27 patients who were
treated in 2012 and whose care we evaluated, we found that radiation treatment was
appropriate but that in three cases treatment was delayed.

We found that documentation of patient care in the electronic health record remained
deficient, which could potentially compromise overall patient care. This deficiency had
been cited in a prior OIG report and in two accreditation surveys.

We found improvements in quality management, but also found that the reporting of
adverse events did not occur as specified in the facility’s action plan in response to the
2011 OIG report. We also found that the facility was unaware of a complication that
was managed at a referring facility five months after completion of radiation treatment.

We recommended that the Under Secretary for Health ensure that repeated deficiencies
in the documentation of patient care are addressed and do not persist. We also
recommended that the Veterans Integrated Service Network (VISN) Director ensure that
complications of radiation therapy that are managed at referring facilities are reported to
the facility where radiation therapy was provided. Finally, we recommended that the
VISN Director require that the facility Director ensure that radiation therapists adhere to
local policy when shifts in the field of delivered radiation occur, and that adverse events
in the Radiation Oncology department are consistently reported to facility managers as
specified in the facility’s action plan in response to the 2011 OIG report.




VA Office of Inspector General                                                                 i
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA


Comments: The Under Secretary for Health, VISN, and facility Directors concurred
with our recommendations and provided acceptable action plans. (See Appendixes A
through C, pages 10–17 for their comments.) We will follow up on the planned actions
until they are completed.




                                                         JOHN D. DAIGH, JR., M.D.
                                                        Assistant Inspector General for
                                                          Healthcare Inspections




VA Office of Inspector General                                                                 ii
        Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA



                                              Purpose

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted a
review to follow up on our March 2011 report 1 on radiation therapy (RT) at the VA Long
Beach Healthcare System (facility) in Long Beach, CA. OIG also assessed the validity
of new allegations related to the quality of radiation treatments, including allegations
about the care provided for patients described in the 2011 report.

The objectives of this follow-up review were to determine whether:

        RT patients are receiving appropriate treatment.
        The radiation oncology (RO) department and the facility have an effective quality
         management (QM) program.
        Actions were completed in response to recommendations in the 2011 report.

                                          Background

The facility is a tertiary care medical center that provides medical, surgical, neurological,
psychiatric, and rehabilitative services in Veterans Integrated System Network
(VISN) 22. The facility has 231 hospital beds and 91 community living center (nursing
home) beds and is affiliated with the University of California at Irvine, California State
University at Long Beach, and the University of Southern California.

In 2010, OIG received allegations that RO patients were receiving poor care because of
incompetent radiation oncologists and a hostile working environment. We conducted a
site visit in November 2010 and substantiated the allegation of poor care for 1 of the 10
patients reported and identified deficiencies in electronic health record (EHR)
documentation for 9 of the 10 patients. We also substantiated that facility leaders were
not aware of adverse patient outcomes in RT and found that actions were not taken to
correct deficiencies identified in peer reviews. We did not substantiate the allegation
that radiation oncologists lacked competence and we did not address the allegation of a
hostile work environment. Following publication of the 2011 report, the OIG received
additional allegations that detailed specific aspects of the care provided to individual
patients.

RT, along with medical and surgical interventions, is one of the three primary
approaches to cancer treatment. RT uses ionizing radiation to destroy or inhibit the
growth of cancer tissue. To be delivered safely and effectively, RT requires effective
communication among primary care physicians, medical oncologists, surgeons, and
members of the RT treatment team. The RT treatment team includes radiation
oncologists and therapists, dosimetrists, physicists, and nurses, and careful
coordination is essential within this group.

In the documentation of RT care for individual patients, several elements are expected.
These include the extent to which patients participate in planning for their care; details

1
 Healthcare Inspection – Alleged Poor Quality of Care in Radiation Therapy, VA Long Beach Healthcare System,
Long Beach, California, Report No. 10-03861-119, March 9, 2011.


VA Office of Inspector General                                                                                 1
        Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA


about the plan for and delivery of RT treatments; monitoring of response, side effects,
and outcome; and the care anticipated following RT. At a minimum, documentation
should include an initial consultation, a summary describing completed treatment, and a
follow-up evaluation.2

In response to deficiencies identified by the OIG during its November 2010 site visit, the
facility Director requested that a review be conducted by the National Director (ND) of
the Veterans Health Administration (VHA) RO Program. In a December 2010 report,
the NDRO noted that “multiple mandatory quality assurance procedures have not been
performed by the medical physicist” and that similar deficiencies had been cited by the
American College of Radiology (ACR) during its 2009 survey. The NDRO also stated
that the “time from consult to treatment is typically three weeks, which is not
acceptable.” The NDRO recommended that the facility immediately increase the
number of medical physicists, radiation therapists, and administrative personnel.

The facility planned comprehensive actions to address all identified deficiencies:

        An external protected peer review of the care provided to Patient 1 in the 2011
         OIG report was completed.
        The RT QM Committee (RTQMC) was developed to ensure that clinical care
         documentation and quality improvement activities comply with VHA and ACR
         guidelines.
        Daily audits are conducted to ensure that progress notes, treatment summaries,
         and documentation of radiation dose and treatment modifications are completed.
        Documentation discrepancies are addressed in weekly chart round meetings.
        EHR aggregate data is reported to the RTQMC monthly.
        The RTQMC provides a summary of all adverse clinical outcomes to the Medical
         executive Committee (MEC) quarterly.
        A summary of all adverse clinical outcomes is provided to the facility Executive
         Leadership and Quality Board (ELQB).

In a June 2012 follow-up report, the NDRO noted that although several components of
the action plan had been implemented, there were recommendations in medical physics
that remained to be completed. The report recommended that planned new modalities
of radiation treatment be deferred until policies were developed and machine quality
assurance equipment was purchased.

The facility underwent an accreditation review by the ACR on November 30, 2012. In a
report dated January 25, 2013, the ACR described multiple deficiencies and deferred
accreditation.

ACR findings included deficiencies in physics quality control and documentation of
treatment planning and patient evaluations during and after completion of treatment.
The report stated that the use of “three separate documentation systems is inefficient
and could lead to mistakes,” and that this issue “was discussed in the 2009 report.” The

2
 American College of Radiology. Practice Guideline for Communication: Radiation Oncology, rev. 2009.
http://www.acr.org/~/media/ACR/Documents/PGTS/guidelines/Comm_Radiation_Oncology.pdf. Accessed
May 8, 2013.


VA Office of Inspector General                                                                         2
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA


report also mentioned that it was unclear “how physician peer review was being
conducted.”

                            Scope and Methodology

We conducted an unannounced inspection December 10–11, 2012, at which time we
learned that ACR surveyors had been onsite during the prior week. We observed the
practices of radiation therapists on December 10. We also evaluated the care provided
to selected RT patients July–September 2012; patient EHRs were chosen to include a
variety of cases, such as common and less common diagnoses and conditions
associated with an increased risk of complications. For the patients scheduled for
treatment December 10–11, 2012, we examined EHRs in addition to departmental
electronic and paper records.

We observed selected RO departmental operations and interviewed facility managers,
clinical care providers, and RT staff. We also reviewed QM reports; VHA, facility, and
department policies and procedures; committee meeting minutes; and other pertinent
documents. We evaluated the credentialing and privileging and training records of the
radiation oncologists and corresponding records for the radiation therapists. To assess
compliance with required documentation, we also reviewed RT summary notes and
follow-up notes for patients whose treatments were completed during August–October
2012.

Subsequent to our December site visit, we received specific allegations of poor care
allegedly provided to four patients in 2009 and 2010. We conducted an announced
inspection on February 11, 2013, to examine records available only onsite.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                3
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA



                                 Inspection Results

Issue 1: Quality of Care

a. Patients Alleged to Have Received Substandard RT

Four patients were alleged by a complainant to have received substandard RT. We
evaluated care for three of the patients as part of the 2011 OIG review. We re­
assessed management of these patients in light of new allegations regarding specific
aspects of RT. The fourth patient was identified following publication of the 2011
review.

We found that prior to March 2011 the facility had no written policy for procedures to be
followed when shifts in the field of delivered RT occurred. For three prostate cancer
patients treated in 2009 and 2010, therapists did not obtain images following shift
corrections. However, we were able to determine that appropriate corrections occurred
and that all patients received full treatment to tumor containing tissue. Additionally,
there was no evidence of complications attributable to errors in delivery of radiation
therapy.
       1. A man in his 60s was treated with intensity modulated RT (IMRT) for prostate
       cancer in 2009. A progress note summarizing the treatment was signed by a
       radiation oncologist 15 weeks after completion of RT. When the patient was
       evaluated 6 weeks after completion of treatment, he reported mild bowel and
       bladder symptoms. As of May 2013, the patient was being seen at the facility for
       routine outpatient care.

       2. A man in his 70s was treated with IMRT for prostate cancer in 2009. A
       progress note summarizing the treatment was signed by a radiation oncologist
       7 weeks after completion of RT. The patient was seen 7 weeks after completion
       of treatment; at that time, he reported persistent nocturia. Approximately 8
       months after completion of treatment, he developed hemorrhagic cystitis and was
       treated with hyperbaric oxygen. He subsequently had transient proctitis. In April
       2013, the patient was seen at the facility for follow-up evaluation by a radiation
       oncologist; at that time, he had no urinary or gastrointestinal symptoms.

       3. A man in his 70s was treated with IMRT for prostate cancer in 2009 and 2010.
       A progress note summarizing the treatment was signed by a radiation oncologist
       8 weeks after completion of RT. When he was evaluated 6 weeks after
       completion of treatment, he was noted to have persistent nocturia. Ten months
       after completion of treatment, he underwent hyperbaric oxygen therapy for
       proctitis. During a follow-up evaluation by a radiation oncologist in December
       2012, he was noted to have no gastrointestinal symptoms. As of April 2013, he
       was being seen at the facility for routine outpatient care.

We also found that a patient (Patient 4) with vocal cord cancer had transient skin
abnormalities resulting from misdirection of the radiation beam. This problem was
identified and corrected after 10 treatments, no long-term adverse consequences

VA Office of Inspector General                                                                4
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA


resulted from the initial misdirection of the radiation beam, and radiation was
consistently delivered to the target lesion.

       4. A man in his 50s was treated for vocal cord cancer after referral from another
       VA facility. After initiation of RT and delivery of 10 treatments, a physician wrote
       that the patient’s neck had “slight hyperpigmentation, no desquamation, bilateral
       neck swelling/will monitor/hyperpigmentation...Need to review patient’s treatment
       beams tomorrow at treatment.” The treatment field size was subsequently
       reduced. A progress note summarizing the treatment was signed by a radiation
       oncologist 5 weeks after completion of RT. When the patient was evaluated 6
       weeks after completion of treatment, he described no major problems; a note
       summarizing the patient’s post-treatment course was signed by a radiation
       oncologist on the day of that visit. At the referring facility 10 weeks after
       completion of therapy, the patient was evaluated by an otolaryngologist, who
       noted “significant supraglottic and post arytenoid edema.”              The patient
       subsequently required placement of a tracheostomy. As of July 2012, the patient
       was being followed by a primary care provider for routine outpatient care.

Patients 1–3 underwent RT for prostate cancer in 2009 and 2010. Our review of
treatment records revealed that for each of these patients, shifts of greater than 5 mm in
the field of delivered radiation occurred. Sound practice and the local policy written in
2011 require that new images be obtained and shifts approved by the treating physician
whenever shifts of this magnitude occur; however, this requirement was not met on 30
of 35 occasions when such shifts occurred.

Although new images were not consistently obtained following shift corrections, we
determined that appropriate corrections occurred in almost all cases. Further, despite
shifts, all patients received full treatment to tumor containing tissue. These patients had
urinary and bowel complications that occur frequently in association with RT for prostate
cancer, and we found no evidence to indicate that these were related to shifts.

Patient 3 also had transient skin symptoms associated with treatment. In the treatment
of prostate cancer, the skin is necessarily exposed to radiation, and skin reactions are
not uncommon. Although this patient had a planned radiation dose to the skin that may
be considered somewhat higher than usual, his skin reaction may have occurred
regardless of the specific treatment plan.

Patient 4 was treated for vocal cord cancer and had skin abnormalities indicating
misdirection of the beam of radiation. This problem was identified and corrected after
10 treatments, and no long-term consequences were identified. Our review of treatment
records indicated that radiation was consistently delivered to the target lesion. Airway
complications that resulted in the need for tracheostomy occurred after treatment, but
these were not attributable to errors in the delivery of RT.




VA Office of Inspector General                                                                5
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA


b. Patients Treated July–September 2012

Of the 34 patients who received RT at the facility July–September 2012, we selected
11 patients for review; these patients ranged in age from 62 to 87 years (median, 70).
These patients were treated for malignancies involving the head and neck (8),
esophagus (1), lung (1), prostate (1), and knee (1); one patient had both head and neck
and esophageal cancer.

Following initial consultation with the radiation oncologist, patients undergo simulation to
establish the appropriate volumes of tissue to be treated, identify normal structures
within or adjacent to this volume, and determine optimal positioning.3 Although no
published guidance specifies a maximum acceptable time from consultation with a
radiation oncologist to simulation or initiation of treatment, VHA’s NDRO Program, has
written that the “time from consult to treatment…should be less than two weeks.” For
the 11 patients whose EHRs we reviewed, the median time from simulation to initiation
of treatment was 25 days (range, 17–85 days). For nine of these patients, delays were
attributable in part to planned initiation of chemotherapy prior to RT, completion of
required imaging studies and surgical procedures, or difficulties coordinating care with
patients and referring facilities. In no case was there evidence of clinical harm
associated with delays.

We noted incomplete or delayed documentation of care for all 11 patients whose EHRs
we reviewed. However, we did not find substantial deficiencies in the planning or
delivery of RT.

c. Patients Under Treatment December 10–11, 2012

The 16 patients scheduled for treatment December 10–11, 2012, had malignancies
involving the prostate (5), lung (5), head and neck (2), esophagus (1), brain (1),
pancreas (1), and stomach (1). We reviewed the EHRs of these 16 patients. We again
noted deficiencies in the documentation of care, but found no substantial deficiencies in
the planning or delivery of RT. In three cases, we noted a delay in the initiation of
treatment, two of which were attributable in part to the need for a diagnostic procedure
or chemotherapy. In no case was there evidence of clinical harm associated with
delays.

Issue 2: Documentation of Care

We found that documentation in the EHR remained deficient. This deficiency had been
cited in OIG’s 2011 report and in the ACR’s 2009 and 2012 accreditation surveys. Our
onsite inspection of departmental electronic and paper records revealed appropriate
delivery of RT except as noted above. However, documentation of patient evaluations
during and after treatment was often delayed or absent, which could potentially
compromise overall patient care.


3
 http://www.acr.org/~/media/ACR/Documents/PGTS/guidelines/Radiation_Oncology.pdf. Accessed
May 13, 2013.

VA Office of Inspector General                                                                6
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA


Three records of care provided in the RO department are maintained simultaneously.
First, RT staff keep paper records, including details of daily treatment. Second, staff
document treatment using proprietary software accessible only in the department; this
component of documentation includes specific aspects of treatment planning. Finally,
patient evaluations and treatment summaries are entered in the VA EHR.

The ACR Practice Guideline for Communication: Radiation Oncology specifies that
timely and accurate communications through written reports are critical to quality patient
care.4 Radiation oncologists are expected to record an evaluation of patients at least
weekly during treatment, a detailed summary at the completion of treatment, and at
least one follow-up assessment. The guideline states that this information “should be in
the medical record shortly after the visit or the completion of treatment.”

We found that required documents in the EHR were absent or were completed late. For
specific note types, we found the following:

    	 On-Treatment Notes: Radiation oncologists are expected to document weekly
       patient evaluations during treatment. For 3 of the 27 patients who were treated
       July–September 2012 or December 10–11, 2012 and whose EHRs we reviewed,
       we found instances of absent weekly treatment notes. We found no deficiencies
       in the documentation of on-treatment notes for the four patients whose EHRs we
       reviewed onsite in February 2013.

    	 Summary Notes: Completion of a progress note summarizing the course of
       therapy is expected soon after treatment completion. This information is an
       important component of each patient’s ongoing care and needs to be available to
       primary care providers and medical and surgical specialists. For 20 of the 37
       patients whose treatment was completed August–October 2012, summary notes
       were completed more than 10 days after the last treatment. For all 37 patients,
       the median time from the date of last treatment to completion of summary notes
       was 15 days (range, 1–92 days).

    	 Follow-Up Notes: Although no published criteria specify when follow-up should
       occur after completion of treatment, accepted practice is for patients to be
       evaluated approximately 6 weeks after final treatment. Of the 37 patients
       described above, 31 were alive 8 weeks after completion of treatment. Of these
       31 patients, 6 had no follow-up notes. For the remaining 25 patients, the median
       time from the date of last treatment to completion of follow-up notes was 35 days
       (range, 8–105 days).

Additionally, notes must be signed in order for other providers to view them in the
EHRs. Unsigned notes are not available for review by other clinicians. At the time of
our site visit in December 2012, one radiation oncologist had 36 (9 percent) of 383

4
 ACR. Practice Guideline for Communication: Radiation Oncology, rev. 2009.
http://www.acr.org/~/media/ACR/Documents/PGTS/guidelines/Comm_Radiation_Oncology.pdf. Accessed
May 8, 2013.

VA Office of Inspector General                                                                   7
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA


notes entered since July 1 unsigned more than 10 days following the date of patient
encounter.

Issue 3: QM Activities

Following the 2010 OIG visit, the facility established the RTQMC, which met monthly or
more frequently February–October 2011 and in February, March, May, and
October 2012. Meeting minutes in 2011 reflected 95 percent or greater compliance with
documentation requirements with intermittent deficiencies identified in daily EHR nurse
audits, weekly chart rounds, and monthly chart reviews. Meeting minutes in 2012 again
indicated substantial compliance with documentation requirements.

We found that the reporting of RO adverse events did not occur as specified in the
facility’s action plan in response to the 2011 OIG report. We found that summaries of
adverse clinical outcomes were reported to the MEC semi-annually rather than quarterly
as specified in the facility’s action plan in response to the OIG 2011 report. In addition,
facility staff stated that summaries of adverse clinical outcomes were not reported to the
ELQB.

VHA policy requires that all adverse events be reported to the facility Patient Safety
Manager (PSM).5 The Chief of QM, who supervises the PSM, informed us that no
adverse events in RT were reported even though MEC summaries indicated that
adverse events had occurred.

In order to ensure quality of care, radiation oncologists should be aware of
complications that occur following completion of radiation treatment. For patient #4
described above, however, the facility was unaware of a complication that was
managed at the referring facility five months after completion of radiation treatment.

During 2011 and 2012, the facility referred one RO case for peer review. We found that
the peer review was completed as required by VHA policy.6

Issue 4: Credentialing, Privileging, and Training

We reviewed the credentialing and privileging folders, profiles, and training records of
the radiation oncologists and found that they were in compliance with VHA policy.7 We
also found that each of the radiation therapists had completed required training.




5
  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
6
  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
7
  VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

VA Office of Inspector General                                                                8
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA




                                    Conclusions

We found that for three prostate cancer patients treated in 2009 and 2010, therapists
did not follow accepted practice when shifts in the field of delivered radiation occurred.
However, we were able to determine that appropriate corrections occurred and that,
despite shifts, all patients received full treatment to tumor containing tissue.
Additionally, there was no evidence of complications attributable to errors in delivery of
radiation therapy.

We also found that a patient with vocal cord cancer had transient skin abnormalities
resulting from misdirection of the radiation beam. This problem was identified and
corrected after 10 treatments. No long-term adverse consequences resulted from the
initial misdirection of the radiation beam, and radiation was consistently delivered to the
target lesion.

For an additional 27 patients who were treated in 2012 and whose care we evaluated,
we found that radiation treatment was appropriate but that in three cases treatment was
delayed.

We found that documentation in the electronic health record remained deficient, which
could potentially compromise overall patient care. This deficiency had been cited in a
previous report and in accreditation surveys.

We also found that the facility was unaware of a complication that was managed at a
referring facility five months after completion of radiation treatment.

                                 Recommendations

1.	 We recommended that the Under Secretary for Health ensure that repeated
    deficiencies in the documentation of patient care are addressed and do not persist.

2.	 We recommended that the VISN Director ensure that complications of radiation
    therapy that are managed at referring facilities are reported to the facility where
    radiation therapy was provided.

3.	 We recommended that the VISN Director require that the facility Director ensure that
    radiation therapists adhere to local policy when shifts in the field of delivered
    radiation occur.

4.	 We recommended that the VISN Director require that the facility Director ensure that
    adverse events in the Radiation Oncology department are consistently reported to
    facility managers as specified in the facility’s action plan in response to the 2011
    OIG report.


VA Office of Inspector General                                                                9
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs                                  Memorandum


   Date:       July 8, 2013

   From:       Under Secretary for Health (10)

   Subject: Healthcare Inspection – Follow-Up Assessment of Radiation
            Therapy, VA Long Beach Healthcare System, Long Beach, CA

   To:         Assistant Inspector General for Healthcare Inspections (54)


       1. Thank you for providing me this opportunity to respond to the follow-up
       assessment of the VA Long Beach Healthcare System’s (VALBHS)
       Radiation Therapy Program.

       2. I have reviewed the draft report and concur with the report’s
       recommendations. Attached are corrective action plans. In addition,
       please refer to the VISN 22 Network Director comments and the VALBHS
       Facility Director comments.

       3. If you have any questions or need additional information, please
       contact Karen Rasmussen, Acting Director, Management Review Service
       at (202) 461-6643, or by e-mail at karen.rasmussen@va.gov, or Stan
       Johnson, Network Director, VISN 22 at (562) 826-5963.



       (original signed by:)


       Robert A. Petzel, M.D.

       Attachment




VA Office of Inspector General                                                               10
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix A
                      VETERANS HEALTH ADMINISTRATION (VHA)

                                  Action Plan


Office of Inspector General, Draft Report, Healthcare Inspection Follow-Up
Assessment of Radiation Therapy VA Long Beach Healthcare System Long
Beach, California (VAIQ 7373901)

Date of Draft Report: June 4, 2013

Recommendations/                            Status                Completion
Actions                                                           Date

Recommendation 1: We recommend that the Under Secretary for Health ensure
that repeated deficiencies in the documentation of patient care are addressed and
do not persist.

VHA Comments

Concur

The VHA Under Secretary for Health remains committed to providing appropriate
oversight to ensure that repeated documentation deficiencies are addressed and do not
persist. Corrective actions have already been implemented by the VA Long Beach
Healthcare System (VALBHS) Facility Director, with ongoing oversight by the VISN 22
Network Director. The Facility Director has established and implemented a more
comprehensive monitoring and reporting system to ensure compliance with timely
documentation of clinical care in the Radiation Oncology program. In addition, the VISN
Director has charged the Network 22 Clinical Services Council, comprised of the VISN
Chiefs of Staff and Nurse Executives, to oversee the process, with monthly reporting
requirements until four consecutive months of 90 percent or greater compliance is
demonstrated. Thereafter, reporting will be quarterly. Repeated failures by the
VALBHS Radiation Oncology Chief to properly supervise and enforce documentation
requirements, are being addressed.

In the interest of better understanding the nature of documentation delays, the Facility
Interim Chief of Staff performed a more intensive record review. Compliance with
weekly On-Treatment notes was 93 percent. Regarding timeliness of Follow-Up Notes,
the OIG calculated the days based on the date of last treatment. However, the Facility
calculated the days based on the actual date of the follow-up visit. The average number
of lapsed days of documentation for this same group of patients was only 2 days.

To further strengthen and improve the integrity of the VALBHS Radiation Oncology
program, a combination of programmatic structural and functional changes are
underway. The Under Secretary for Health, the Network Director, the Facility Director,
and the Facility Interim Chief of Staff have been engaged in continuous communication
regarding challenges and opportunities. As a result, the Network Director and Facility
Director have developed an aggressive plan to reorganize the program.


VA Office of Inspector General                                                               11
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA




At present, VISN 22 offers radiation therapy services at two distinct programs: the
Radiation Oncology program at VA Greater Los Angeles Healthcare System
(VAGLAHS) and the Radiation Oncology program at VALBHS. The two facilities are in
the process of consolidating the programs. Recruitment of a new Chief for the
consolidated program is currently in progress. Establishing a single Radiation Oncology
program for the VISN will provide a more comprehensive focus. In addition, the
selection of a Chief to oversee management and operations of both programs will result
in more consistent oversight and supervision, including the quality and timeliness of
clinical documentation.

In progress                      September 30, 2013

Veterans Health Administration
July 2013




VA Office of Inspector General                                                               12
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix B
                            VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


   Date:	      July 8, 2013

   From:	      Director, Desert Pacific Healthcare Network (10N22)

   Subject:	 Healthcare Inspection – Follow-Up Assessment of Radiation
             Therapy, VA Long Beach Healthcare System, Long Beach, CA

   To:	        Under Secretary for Health (10)


               1.	 Thank you for providing me this opportunity to respond to the
                   follow-up assessment of the VA Long Beach Healthcare
                   System’s (VALBHS) Radiation Therapy Program.
               2.	 Please accept my response to Recommendation 2, outlined
                   below. In addition, please refer to the VALBHS Facility Director
                   comments in subsequent pages.
               3.	 If you have any questions or need additional information, please
                   contact me at (562) 826-5963.




               Stan Johnson, MHA, FACHE




VA Office of Inspector General                                                               13
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix B

                         Comments to OIG’s Report
The following comments from the VISN 22 Network Director are submitted in response
to Recommendation 2:

OIG Recommendations

Recommendation 2.            We recommended that the VISN Director ensure that
complications of radiation therapy that are managed at referring facilities are reported to
the facility where radiation therapy was provided.

Concur.

Target date for completion: July 30, 2013

Response: Although we are not aware of any regulations or policies that require
facilities to report complications of radiation therapy to the facility that provided the
therapy, we believe that this constitutes appropriate communication and practice;
therefore, we concur with implementing this recommendation. The VISN Director has
established and implemented a communication and reporting system to ensure that
radiation complications identified by VISN 22 facilities are communicated to the facility
that provided the radiation therapy. Patient Safety Officers (PSO) monitor Patient Event
Reports to identify patients with suspected or actual evidence of radiation complications
that may have occurred at another facility. The PSO immediately notifies the Chief of
Staff (COS), who communicates the information to the COS at the facility where the
radiation therapy was provided. In addition, the Network 22 Clinical Services Council
agenda now includes mandatory monthly reporting by all facilities, including negative
responses.




VA Office of Inspector General                                                               14
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix C
                         System Director Comments


               Department of
               Veterans Affairs                                  Memorandum


   Date:	      July 12, 2013

   From:	      Director, VA Long Beach Healthcare System (600/00)

   Subject:	 Healthcare Inspection – Follow-Up Assessment of Radiation
             Therapy, VA Long Beach Healthcare System, Long Beach, CA

   To:	        Director, Desert Pacific Healthcare Network (10N22)


               1.	 Thank you for providing me this opportunity to respond to the
                   follow-up assessment of the VA Long Beach Healthcare
                   System’s (VALBHS) Radiation Therapy Program.
               2.	 Please accept my response to Recommendation 3 and 4,
                   outlined below.
               3.	 If you have any questions or need additional information, please
                   contact me at (562) 826-5400.




               Isabel Duff, MS




VA Office of Inspector General                                                               15
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix C

                         Comments to OIG’s Report
The following Facility Director’s comments are submitted in response to the
Recommendations 3 and 4:

OIG Recommendation

Recommendation 3. We recommended that the VISN Director require that the facility
Director ensure that radiation therapists adhere to local policy when shifts in the field of
delivered radiation occur.

Concur

Target date for completion: Completed

Response: The patients reviewed in this hotline were from 2009 and 2010 and were
prior to the OIG recommendation that a policy be developed and followed when shifts in
the field of delivered radiation are indicated. In response to the OIG report in 2010, and
although strong practices were in place, the facility issued a local policy defining clear
procedures to be followed when shifts are performed. In addition, a Radiation Oncology
Quality Management Committee was established in 2011, and was charged with the
responsibility to monitor the appropriate response to field shifts in its daily reviews, with
reporting explicitly included in the quarterly reports to the Medical Executive Council.
The facility Director will continue to ensure radiation therapists follow local policy, as
they have done since 2011.

Recommendation 4. We recommended that the VISN Director require that the facility
Director ensure that adverse events in the Radiation Oncology department are
consistently reported to facility managers as specified in the facility’s action plan in
response to the 2011 OIG report.

Concur

Target date for completion: Completed

Response: The OIG identified that summaries of adverse clinical outcomes reported
through the Medical Executive Committee were not reported to the facility Patient Safety
Officer or the Executive Leadership Quality Board.

In follow-up to the 2011 OIG report, a Radiation Oncology Quality Management
Committee was established to oversee clinical care in the department. Regular reports
of patients treated and adverse conditions were generated and were presented at the
Medical Executive Council (MEC) meetings for five of the six quarters during this review
period. The quarterly data that were not reported in December 2012 were reported in
March 2013. Unfortunately, MEC reporting of these data to the Executive Leadership
Quality Board (ELQB) was inconsistent.


VA Office of Inspector General                                                               16
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix C
It is important to note that there have been no occurrences of adverse events in the
VALBHS Radiation Oncology department. The facility response used the terminology
‘adverse clinical outcomes,’ which included common and often expected complications
that patients experience during the course of radiation therapy. These ‘conditions’ were
monitored and reported, and served as a basis to make decisions about future
treatments; however, they are not considered adverse events, based on the VHA
definition in Handbook 1050.01. Therefore, they were not reported to the Patient Safety
Officer.

The facility Director will ensure the Radiation Oncology Quality Management Committee
clearly defines an adverse event, based on the VHA definition in Handbook 1050.01, as
opposed to common and often expected complication that patients experience during
the course of radiation therapy, and will also delineate this in future reports to MEC and
ELQB. The facility Director will also ensure that the MEC submits these reports to the
EQLB quarterly, until it is determined that quarterly reporting is no longer necessary.




VA Office of Inspector General                                                               17
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix D



                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Simonette Reyes, RN, Team Leader
                         Jerome Herbers, MD
                         Glen Pickens, RN, MHSM
                         Jackelinne Melendez, MPA, Program Support Assistant




VA Office of Inspector General                                                               18
      Follow-up Assessment of Radiation Therapy, VA Long Beach Healthcare System, Long Beach, CA
                                                                                    Appendix E



                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Desert Pacific Healthcare Network (10N22)
Acting Director, VA Long Beach Healthcare System (600/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
  Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
  Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein

U.S. House of Representatives: Karen Bass, John Campbell, Judy Chu, Gary Miller,

Grace Napolitano, Dana Rohrabacher, Lucille Roybal-Allard, Ed Royce,

Linda Sanchez, Loretta Sanchez, Adam Schiff, Maxine Waters, Henry Waxman



This report is available at www.va.gov/oig.




VA Office of Inspector General                                                               19
